83 X 8

No.

ORIGINAL
Supreme Court, U.S.
FILED

MAR 3 1 202!
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JASON CHARLES YOUKER
(Your Name)

— PETITIONER

vs.
UNITED STATES OF AMERICA — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JASON CHARLES YOUKER #11996-085

(Your Name)
9595 west quincv avenue

(Address)
Littleton.CO. 80121
(City, State, Zip Code)
FCI-ENGLEWOOD
(Phone Number)

l\

QUESTION(S) PRESENTED

1. DO POLICE VIOLATE;-THE FIFTH AMENDMENT OF THE CONSTITUTION

YnformantsRtoVbeEdistributedIon u^sCcItizens

withoutOanyDrecovery

2- sagaMi spssmmmM
/

3. WOULD JURORS OF REASON HAVE THEIR CONSCIOUS SHOCKED BY OFFICERS
PROVIDING HEROIN AND METHAMPHETAMINE TO THEIR INFORMANTS WHERE
THOSE NARCOTICS WERE DISTRIBUTED TO A PREGNANT MOTHER AND DRUG
USERS IN THE COMMUNITY,AS WELL AS USED TO RARE A LADY BY THEIR

LIST OF PARTIES

M All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
SOLICITOR GENERAL OF THE UNITED STATES
ROOM 5614,DEPARTMENT OF JUSTICE
950 PENNSLVANIA AVE • f N.W • $ WASHINGTONfD.C.
20530-0001

RELATED CASES
APPEALS COURT CASE NUMBERS:15-30128;NINTH CIRUIT;15-30129;15-30182;
15-30183*16-30315;18-30035;18-30158;19-36108;20-35737;20-36019 9CCA
(

TABLE OF CONTENTS

j

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

A-6

REASONS FOR GRANTING THE WRIT

7.-12

CONCLUSION

13

INDEX TO APPENDICES
APPENDIX A

DECISION OF COURT OF APPEALS NINTH CIRUIT,JAN.15,2021

APPENDIX B

DECISION OF COURT OF APPEALS NINTH CIRCUIT,DEC.14,2020;
DEC.2,2020; AUG.7th,2020; JUNE 30TH,2O2O.

APPENDIX C

DECISION OF DISTRICT COURT OF EASTERN WASHINGTON
AUG.26,2020.

APPENDIX D

DECISION OF DISTRICT COURT OF EASTERN WASHINGTON
AUG.7th,2020.

APPENDIX E

DECISION OF DISTRICT COURT OF EASTERN WASHINGTON
FEB.11th,2020.

APPENDIX F

DECISION OF DISTRICT COURT OF EASTERN WASHINGTON
DEC 11th,2019; NOV.12,2019.

APPENDIX G

PETITION FOR WRIT OF CERTIORI FILED APR-9,2021

APPENDIX H

DEFENDANTS MOTION TO VACATE THE JUDGMENT PURSUANT TO
RULE 60(B)(6);AFFIDAVIT IN SUPPORT OF MOTION;DEFENDANTS
REPLY.

INDEX TO APPENDICES
APPENDIX I
APPENDIX J
APPENDIX K
APPENDIX L
APPENDIX M

DEFENDANTS MOTION FOR RECONSIDERATION TO GRANT
CERTIFICATE OF APPEALABILITY MARCH 27,2021.
DEFENDANTS MOTION TO RECONSIDER,APPEAL NO 20-35737

kjm

u-s'c'§2255 complaint

KWISKfr0F FIRST

TRIAL TRANSCRIPTS OF COMMANDER BROWN,PAGES 855-56,
PArFSQ^nL«rAw
CALLHE"WALK";TRANSCRIPT
PAGE 850, CAN BREAK LAWS BECAUSE
IS LAW ENFORCEMENT"
APPENDIX N TRIAL TRANSCRIPTS OF OFFICER BARCUS,PAGES 668-72,
"SO DID YOU OBSERVE TAMMY,WHO IS ADDICTED TO THESE
DRUGS,GO TO TOWN AND SELL THESE DRUGS" A."no,I did
not" Id.at 71

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

UNITED STATES V. HARRIS,997 F.2d 812,818 {10th cir.1993)

1

UNITED STATES V. ROSENTHAL, 793 F.2d 1214,1236 (Iltn cii.1986)

7-8

HAMPTON V. UNITED STATES, 425 U.S. 484,500 Footnote,sec 3.n 3.(1576)- 8
MILLER-EI, V. COCKRELL,537 U.S. 322,338 (2003)

11

UNITED STATES V. UGARLE.U.S.DIST.LEXIS 121915,(10th cir.2020)

12

UNITED STATES V. RUSSELL, 411 U.S. 423,432 (1973)

12

STATUTES AND RULES
21 U.S.C.§846

4

21 U.S.C.§841{a)(1),(b)(1)(B)(viii)

4

28 U..S.C.§851

4

28 U.S,C.§2255

5-6,9-10

FEDERAL RULE OF CIVIL PROCEDURE,53(e)

5

FEDERAL RULE OF CIVIL PROCEDURE,60(b)

6

FEDERAL RULE OF CIVIL PROCEDURE,15

6

28 U.S.C.§144

9

28 U.S.C.§455

9

OTHER
ATTORNEY JANET RENO'S CONFIDENTIAL GUIDELINES,DEPARTMENT OF
JUSTICE REGARDING THE USE OF CONFIDENTIAL INFORMANTS,(JANUARY
8th,2001)(.l.b.(xv)).

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
•

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix a/b_to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix Cr-F__to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ xl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was DEC.14,2020
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: jan.15 f20211
, and a copy of the
order denying rehearing appears at Appendix _A
M An extension of time to file the petition for a writ of certiorari was granted
to and including compliment
(date) on June 12.2021
(date)
in Application No.__ A_____
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTIT.AMENDMENT FIVE: NO PERSON SHALL BE HELD TO ANSWER FOR A
CAPITAL,0R OTHERWISE INFAMOUS CRIME,UNLESS ON A PRESENTMENT]OR
INDICTMENT OF A GRAND JURY,EXCEPT IN CASES ARISING IN THE LAND OR
NAVAL FORCES,OR IN THE MILITIA, WHEN IN ACTUAL SERVICE IN TIME OF
WAR OR PUBLIC DANGER;NOR SHALL ANY PERSON BE SUBJECT FOR THE.SAMEC
OFFENCE TO BE TWICE PUT IN JEOPARDY OF LIFE OR LIMB; NOR SHALL BE
COMPELLED IN ANY CRIMINAL CASE TO BE A WITNESS AGAINST HIMSELF,NOR
BE DEPRIVED OF LI FEi, LIBERTY, OR PROPERTY,WITHOUT DUE PROCESS OF LAW;
NOR SHALL PRIVATE PROPERTY BE TAKEN FOR PUBLIC USE,WITHOUT JUST
COMPENSATION.
28 U.S.C. §144: BIAS OR PREJUDICE OF JUDGE
28 U.S.C. §455: DISQUALIFICATION OF JUSTICE,JUDGE,OR MAGISTRATE

3.

STATEMENT OF THE CASE
This is a non-violent drug offense case pursuant to statutes 21 U.S.C.S846,
and 21 U.S.C.§841(a)(1),(b)(1)(B)(viii), that took place in 2014, where the
sentenceawas enhanced under 28 U.S.C.S851 from a 10 year sentence to a 20 year
prison sentence for&a^previous 1998 conviction.
the pre-trial phases of the case in 2014/15, the defendant was involved
verbal arguments with a private lawfinn's secretary regarding representation
that turned into ugly heated words.
Thereafter the defendant filed a outrageous government gonduct motion alleging
confidential informants were -committing illegal unlawful acts,however stated-in
motion that he did not have evidence or knowledge if the acts were committed at
the direction of the government.
The United States Attorney's office responded to the Outrageous government
conduct motion stating that if confidential informants were committing illegal acts
that it was not at the direction of their police or agents,the Court agreed there
was no evidence that outrageous conduct was committed.
Contrary to the USAO representation,during trial testimony,officers disclosed
that after controlled purchases with their defendants they divided narcotics on the
side of the road in half with their informants,their intent was two fold,ci):;.to allow
theii informants to distribute methamphetamine and heroin^on drug users ^n the
community, 2) to further their investigation against the defendant,which included
obtaining enough narcotics on a narcotic deal to reach a mandatory minimum.
Officers provided unprecedented amounts of narcotics to informants which
was 86 grams of heroin and 36.7 grams of methamphetamine,these narcotics it was
discovery were provided too a pregnant mother,young adults,and drug addicts in the
community without any intent of recovery or supervision by enforcement.

4.

The Court appointed appellate^attorney refused to bring forith the illegal
conduct committed by officers in his brief or the misconduct by the USAO in
fabricating unsupport facts in earlier filed outrageous conduct "brief- The
defendant as Iced ifor permission from the 9th circuit court of appeals to file a
supplemental brief in support of these unlawful.conducts committed by the USAO
and officers,howeyerAthe ninth circuit denied the motion to bring forth these
allegations that were supported clearly by the record.
Due to Appellate counsels refusal to bring the arguments and the appellate
Courts refusal to allow defendant to file his own brief,Defendant filed a §2255
Civil motion,which the Court granted on limited grounds to the unlawful police
conduct that was committed by officers anfl srhp^ilpil a PTiHpntiary Sparing
Defendant was put into a 23 hour lockdown on week-days,and a 24 hour lock
down for all holidays and weekends for the next 9 months. During that time the
defendant tried too expand the record by rule and Amend the §2255 motion,all which
was denied by the Court. The Judge then denied the evidentiary hearing days prior
to the scheduled hearing.
The unlawfultpolice conduct was never addressed,the Court construed the illegal
conduct grounds under a franks hearing standard,which was never requested by the
defendant, and under its own conclusions dismissed the §2255 motion. Within 10 days
the defendant filed a Rule 59(e) motion on the laws,which was denied,the defendant
timely filed an appeal.
The District Court Judge denied an appeal stating that jurors of reason would
not find it debatable in the facts presented and law in the unlawful police conduct
claims and the ninth circuit affirmed in that decision never addressing any of the
facts presented or law to the appeal of the Rule 59(e) Motion.

5.

®U-Ic traveling back to Colorado on Con—Air, defendant learned from a fellow
traveling prisoner who was seated next to him that the prisoner had also been
sentenced by the same judge,what is more he was respresent by the lawfirm that
defendant had been in the ugly heated arguments with.
The prisoner passenger disclosed that the defendant had in fact called the
Judge * s Wife a cartel whore, and that the Judge use to be a partner to the law—
finn where defendant had accused of multiple accusations years prior in the
pre-trial of the case.
Immediately upon returning to his institution,defendant filed a extremem Bias
Motion under both Statutes with all the facts attached with a declaration in
support of said motion which was immediately granted without any hearing or any
investigation.
The defendant then filed a Fed.R.Civ.Proc. 60(b) Motion to vacate the case
with a new trial due to the Judges extreme Bias to both the Criminal anH civil
case. The Court Ordered briefs,the OSAO responded and the Court denied the motion
in its belief that there was no bias conducted.
The defendant appealed the Rule 60 (b) motion as well as filed an amended
28 U.S.C.§2255 pursuant to Fed.F.Civ.P. rule 15,which the district court construed
as a second or successive motion,the Defendant appealed that decision as well asking
the appeal court to combine the appeals under one appeal number.
The appeal court denied hearing the Rule 60(b) appeal,never making any deter­
mination onsthetfacts or merits of the appeal arid denied hearing the 28 U.S.C.S2255
appeal against the district court allegeing it fell outside the parameters of the
Civ.R/Proc.15,The appellate court never looked into the facts or law in the motion.
The appellate court never scheduled any briefing ever for the defendant,always
taking the District Court order on its face,defendant then appealed the last order
denyihgiany reconsideration review of those arguments to this Court.

6.

REASONS FOR GRANTING THE PETITION
The Ninth circuit: Court of Appeals has departed from the accepted and
usual course of Judicial proceedings by sanctioning such departures by the lower
District Court- The Lower Court rulings are erroneous and conflict with decisions
in other circuits as well as this Court.
The Lower District Court believes Police-Officers providing Methamphetamine
and Heroin to thier informants for distribution on their citizens is not in any
violation of the fifth Constitutional Amendment,or a violation of the federal
narcotic laws and attorney Janet Reno's confidential guidelines,Department of
justice regarding the use of Confidential Informants,(January 8tk,2001)(.l.b.(
iv)).
It has been stated by this Court that a 'Violation of statute justified
exclusion of evidence.1' However not in this case*, when Oflficers provided narcotics
to be sdld to drug users without any supervision or intent of recovery and the
lower Court validated these acts,it was without regards to any other Courts.
The Tlenth Circuit held:"Any rule that permits unlimited sales of
narcotics to unknown addicts would also lack merit....The governments conduct
would violate due process."United States V. Harris,997 F.2d 812,818(10th CIr.1993)
There is no dispute by the ninth circuit that there were unlimited sales of
narcotics to unknown addicts by their informants,where those narcotics were
provided by their officers after narcotic controlled purchases,due tb the fact
officers provided those facts at trial. A officers direct quote from trials
t

"I allowed to let a portion of the drugs to walk, what we call walk.”
These tactics are egregious,the 11th circuit held: "Officials of the C.I.A.
or any other intelligence agency of the united states do not have the authority to
authorize conduct which would violate the constitution or statutes of the united

7.

States,including Federal Narcotic laws. Exec.Order.12333,3 C.F.R. 200 (1982)."
United States v. Rosenthal,793 F.2d 1214,1236 (11th Cix.1986).
There is no authority in law for the tactic "walk" which this is in violation
of federal narcotic laws. This Court has presented a question of egregious conduct
committed by officers may violate the due process clause of the 5th amendment.
This conduct warrants such a determination where drugs are being provided on
american citizens in communities by law enforcement tactics of "walk", a tactic
used in order to further a investigation to obtain a higher statutory sentence.
The controlled buys were recorded by their informants and the narcotics
purchased. There was no need and no justification for law enforcement to split
the purchased narcotics with their informants for redistribution on drug users.
The decision by the ninth ciruit allows unprecedented amounts of heroin and
methamphetamine to be distributed on citizens purchased and provided by law
enforcement,this is not just a departure from other circuit ruling,butilawiitself.
This Court should consider the question,has methamphetamine ever been supplied on
the public to catch participants in drug traffic. As this Court has made the prior
statement "It might be suggested that the police must on occassion supply contra
band to catch participants in drug traffic,but this justification is unconvincing.
If the police believe an individual is a distributor of narcotics,all that is
required is to set up a "buy";the putative pusher is worth the investigation
effort only if he has ready access to a supply.” Hampton v. United States, 425
U.S. 484,500 footnote,sec 3.n 3. (1976)
This case also involves a Judge that has a extreme bias prejudice against the
defendant pre-trial,trial, and post-trial. This was due to nasty verbal communication
between defendant and the Judge's wife and ex-iawfirm partner that took place in the
first months of defendants criminal case,prior to defendant proceeding pro se.

8.
/

The Judge ORDER OF RECUSAL was ordered over 6 years later when the knowledge of
who the Judges wife and ex-partner became known to the defendant.
However it was too late as the Judge had extracted his revenge in multiple
senerios, djeby placing the defendant into a 23 hour lock-down facility Monday thru
friday, and a 24 hour lock—down allyweek—ends and holidays, where to defendant was
allowed no shower,no phone,no visit,no access.
This extreme punishment took place when the Judge ordered the defendant to the
facility for a 28 U.S.C.§2255 evidential hearing pertaining to unlawful conduct
committed by the officerssregarding the distribution of narcotics on citizens,the
defendant was placed in that facility for 9 months waiting for the hearing.
Three days prior to the hearing the Judge ordered the defendant back to his
institution without conducting the evidentiary hearing, using his own personal bias
to insert facts and arguments that the defendant had never been made in the §2255
motion, and did not even exist.
The entire criminal case and §2255 was unfair and the cases were not in front
of a impartial (Judge. The defendant did "overcome a presumption of honesty and
integrity in those serving as adjudicators." Withrow v. Larkin,421 U.S. 35,47.
Loofeat it this way,your a Judge, you just learned that the police provided
unprecedented amounts of narcotics through their informants during trial testimony
by Officers,would a un-bias Judge want to know the full extent of this illegal
unlawful conduct and all the injuries thereof, especially when a pregnant mother
was provided those drugs,a victim was raped by those provided drugs, and citizens
were the direction of those narcotics?
Defendant moved to vacate the case under 28 U.S.C.§144 and §455 due to the
blatant prejudice by the Judge. The Judge conspired with the prosecution to
cover-up all the illegal acts committed within defendants case due to his extreme

9.

bias. The defendants motion and affidavit is provided herein the Index of
appendices, as well as the motions filed to the Appellate Court and the
amended §2255 complaint that was also denied in Appx.-K
Defendant's reply that presented conduct committed by the Judge during the
coarse of the trial and post-trial proceedings. As this Court will see, none of
the ORDERS address the true facts and Merits of the case presented to any Court,
the District Court focuses on Orders of the Bias Judge, not the due process
clause to a fair and impartial Judge, the focus is only on the Judges bias to
defendants §2255 petition, instead of the entire criminal case.
However, in the ORDER in Appendix D, the District Court acknowledges all
the illegal conduct within the case and record, also with the Ninth Circuit of
appeals denying a Certificate of appealability for the section §2255 petition.
The Defendant's motion to reconsider to grant a certificate of appealability
which is attached herein the Appx.-A was denied without any consideration to the
facts or law by the Court of appeals on Jan. 15,2021, which became the appeal to
this Court.
Both the District Court and the Appellate Court in the Ninth Circuit have
had ample opportunities to decide these questions presented to this Court, However
the Courts have been using the umbrella cloak of "would jurors of reason find it
debatable" to thwart defendant time and time again,as disclosed by their orders.
So I ask this Court, Would Jurors of reason find that a Judge is Bias when
a defendant has had verbal confrontations with both his wife and ex-buisness
partner, where the defendant called his wife a cartel whore? Ia a Judge bias when
he does not bring up the fact that the conduct was in fact committed with his
family and friends, and only recuses himself immediately when those conversations
are brought to the light years later,and in fact it was his own wife involved.

10.

X

The Judge recused himself without any hearing, the USAO did not dispute the
facts nor did the new district Judge, therefore the facts are not in dipute here,
only the law, and whether the Judges bias was fair and impartial.
Even if defendairt would not of prevailed. Jurists of reason would of debated
whether the Judge was bias by the insults to his friend&and wife. Any person of
average intelligence understands the importance that one gives to their friend
and most important, their spouses.
A Jurist of reason can see how this could potentially have affected a Judge's
fairu§nd impartial julings. After all, if Judges are to be thought of as model
citizens with trusted judgment over American citizens, one must assume-the value
they place on the family bond and close friendships. Judges are human beings after
all and not except of temper and feelings,therefore prong *1 cited by the Court of
appeals is met.
A claim is considered debatable "even if every reasonable jurist would agree
that the petitioner will not prevail." as stated in this Court in Miller-EL v.
Cockrell,537 D.S. 322,338 (2003). The lower Court departed from the coarse of
judicial proceedings when it determined the outcome and the Appellate' Court
sanctioned that departure.
Here jurist of reason would have debatedi also-if their conscious would be
shocked by officers providing heroin and methaupphetamine to their informants for
distribution on the citizens,including a pregnant mother and the use of those drugs
to ioofie and rape a lady. Remember, none of the facts within this case have ever
been disputed by any of the Judges or Prosecutors, its always been a easier policy
to not deal with the facts of this case.
The fifth amendment of the Constitution was violated within this case.
"Constitutional violations sufficient to violate the due process clause of the

11.

fifth amendment require a demonstration that the United States has engaged in
conduct that violated "fundamental fairness" and shocked at"universal sense of
justice." United States v. UgarIefU.S. Dist. Lexis 121915 at *9 (10th cir.2020>
Citing United States v. Russellc411 U.S. 423,432 (1973).
There is no. dispute to the facts within this case, as provided in Appx.—M
fVmimaTider Brown states "I allowed to let a portion of the drags walk. What we
rail walk;" This is a tactic that law enforcement uses,however he was asked a
specific question where he answers "Selling drugs is against the law. If that's
what you're asking me, that's correct."
Which was followed by this question "Unless you're law enforcement and you
approve of it; correct?"
Where Brown answered "Thatiis^correct."
Thig Court Stated in RUSSELL "while we may some day be presented with a
situation in which the conduct of law enforcement agaents is so outrageous that
due process principles would absolutely bar the government from invoking judicial
process to obtain a conviction." Id. at 31—32.
Officer BARCUS in Appx.-N confirms what drugs were allowed to be distributed
and too who, She also admits that "I broke it up into two parts" for her ,
rvm-Fid^wHfal informant "to;, go to town and sell drugs?" Which she confirmed with
hpr reasons for that conduct. Under further questioning,she did not know where
those drugs actually ended up being distributed in the community.
In the. interests of justice this Court must take action in this case as all
Courts in the Ninth Circuit refuse to rule on the facts and unlawful police
conduct committed within this case.

12.

CONCLUSION

The petition for a, writ of certiorari should be granted.

Respectfully submitted,

Date:

Ovse 'Sr~g3 I 3tQ3l \

13.

